  Office of Inspector General

       Audit Report


FURTHER ACTIONS ARE NEEDED TO IMPROVE
  FAA’S OVERSIGHT OF THE VOLUNTARY
   DISCLOSURE REPORTING PROGRAM
        Federal Aviation Administration

          Report Number: AV-2014-036
           Date Issued: April 10, 2014
                                                               Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Further Actions Are Needed To                                      Date:    April 10, 2014
           Improve FAA’s Oversight of the Voluntary
           Disclosure Reporting Program
           Federal Aviation Administration
           Report No. AV-2014-036

  From:    Matthew E. Hampton                                                      Reply to    JA-10
                                                                                   Attn. of:
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           Voluntary safety programs play a significant role in maintaining our nation’s
           impressive aviation safety record. At the forefront of these programs, the Federal
           Aviation Administration’s (FAA) Voluntary Disclosure Reporting Program
           (VDRP) is an important catalyst for improvements in areas such as airline
           operations, maintenance, and training programs. VDRP provides air carriers the
           opportunity to voluntarily report and correct areas of non-compliance without civil
           penalty. The program also provides FAA important safety information that might
           not otherwise come to its attention.

           While VDRP provides an important opportunity to identify and mitigate safety
           issues, it requires close monitoring by FAA to ensure the program is not misused.
           For example, in 2008, we reported a serious abuse of the program in which FAA
           allowed a major airline to repeatedly self-disclose violations of mandatory safety
           directives without ensuring the carrier had developed and implemented solutions
           to prevent recurrence of the problems. 1 In light of these issues, the FAA
           Modernization and Reform Act of 2012 2 mandated that our office examine FAA’s
           oversight of VDRP. Accordingly, our audit objectives were to determine whether
           (1) FAA ensures that air carriers’ disclosure reports meet VDRP requirements
           including the development and implementation of effective corrective actions, and
           (2) FAA uses VDRP data to identify safety risks.

           1
             Review of FAA’s Safety Oversight of Airlines and Use of Regulatory Partnership Programs, (OIG Report Number
           AV-2008-057), June 30, 2008. OIG reports are available on our Web site at http://www.oig.dot.gov/.
           2
             The FAA Modernization and Reform Act of 2012, Pub. L. 112-95, February 14, 2012.
                                                                                                                      2


We conducted this review in accordance with generally accepted Government
auditing standards. To perform our work, we visited 10 of 48 randomly selected
Part 121 air carriers 3 representing passenger and cargo operators, along with their
respective FAA oversight offices. We interviewed 53 inspectors from these
offices, as well as officials at FAA headquarters responsible for VDRP
management and oversight. Exhibit A provides additional details on our scope and
methodology. Exhibit B provides a list of FAA offices and air carriers we visited
or contacted.

BACKGROUND
Since 2008, 98 percent of Part 121 air carriers have participated in VDRP. The
program encourages airlines to voluntarily report instances of regulatory
non-compliance to FAA. As shown in figure 1, these violations are usually
identified through the air carrier’s internal quality control processes, analysis of
safety data, and employee reporting through the Aviation Safety Action Program
(ASAP). 4

Figure 1. Primary Means of Discovering VDRP Violations


                                        Internal Audits




                                                                  Analysis of
                  Quality                 Sources of              Maintenance
                 Assurance                  VDRP                      and
                                          Violations              Operations
                                                                     Data




                                          Employee
                                            ASAP
                                           Reports



Source: OIG.




3
  14 CFR Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations. While there are
approximately 86 part 121 air carriers, we limited our sample to only those 48 carriers with more than 10 closed reports
for the period October 1, 2007 through July 23, 2012.
4
  A joint FAA and industry program intended to generate safety information through voluntary disclosure; allows
individual aviation employees to disclose possible safety violations to air carriers and FAA without fear that the
information will be used to take enforcement or disciplinary action against them.
                                                                                                               3


Under VDRP, it is FAA’s policy 5 to accept a voluntary disclosure and forego civil
penalties when the following conditions are met:

• The air carrier has notified FAA of the apparent violation immediately after
  detecting it and before the Agency has learned of it by other means.
• The violation was inadvertent.
• The violation does not indicate a lack, or reasonable question of, qualification
  of the air carrier.
• Immediate action was taken by the carrier to terminate the conduct that
  resulted in the violation.
• The air carrier has developed or is developing a comprehensive fix, schedule of
  implementation, and a self-audit to ensure the action taken corrects the
  noncompliance.
• The initial notification of a voluntary disclosure was submitted by one of the
  approved air carrier management officials.

There are certain exceptions that allow FAA to exercise discretion in accepting
self-disclosures. For example, if FAA learns of a violation through ASAP or
during joint inspections where FAA and the air carrier identify a problem at the
same time, the disclosure can still be accepted. See exhibit C for a synopsis of the
full VDRP process.

The majority of voluntary disclosures relate to maintenance issues. As shown in
figure 2, documentation errors, issues related to performing inspections on time,
and errors performing maintenance are the leading causes of air carrier self
disclosures. In addition to the different categories of air carrier self disclosures, the
severity of the violations varies greatly. Voluntary disclosures can range from
minor infractions to major violations.




5
 FAA Order 8900.1 Volume 11, Chapter 1, dated June 7, 2011, “Voluntary Disclosure Reporting Program” and FAA
Advisory Circular 00-58B, dated April 29, 2009, “Voluntary Disclosure Reporting Program.”
                                                                                                                4


Figure 2. Top 10 Categories of Voluntary Disclosures:
Maintenance and Operations, October 2007–July 2012
                               250
                                     209
                               200
                                           176   172
                               150
          No. of Disclosures


                                                       113   109   103
                               100                                        84
                                                                                  77
                                                                                          57
                                                                                                  45
                                50

                                 0




Source: OIG analysis of FAA’s VDRP database for 10 randomly selected Part 121 air carriers.

Our 2008 review of Southwest Airlines disclosed lapses in FAA’s oversight of air
carriers, including its oversight of VDRP. Our work, which included an
investigation at one airline, two congressional hearings, and an audit report,
resulted in recommendations to improve the program. We found that the
breakdown in FAA’s oversight occurred because the Agency lacked effective
management controls to oversee the program and did not verify that air carriers
took the necessary measures to correct the underlying causes of violations
identified through VDRP. Some of these problems continue to exist today.

In addition to our efforts in 2008, the former Secretary of Transportation
established an Independent Review Team (IRT) 6 comprised of industry experts to
examine FAA’s approach to safety oversight. The IRT highlighted VDRP during
its review due to its importance to commercial aviation safety. In its conclusions,
the team stressed the need for a higher level FAA management approval of
voluntary disclosures and better analysis of reports.

RESULTS IN BRIEF
FAA has made progress in ensuring that air carrier disclosure reports meet VDRP
requirements. FAA now requires a higher-level management approval for
6
  A Blue Ribbon Panel was appointed May 1, 2008 by then Secretary of Transportation Mary E. Peter to examine the
FAA’s Safety Culture and Approach to Safety Management. A final report from the panel, “Report of the Independent
Review Team” was issued in September 2008.
                                                                                    5


acceptance and closure of VDRP reports. However, FAA lacks awareness of the
root causes that led to reported violations, in part because FAA does not require
air carriers to identify or document the root cause of a violation when they submit
a self-disclosure. Further, FAA guidance states inspectors should be involved in
the root cause identification process with air carriers, but none of the inspectors we
interviewed were doing so. Without an understanding of the underlying causes
behind a violation, FAA cannot be assured that air carriers have developed
corrective actions that will prevent violations from recurring and limits its
inspectors’ ability to identify repeat disclosures. In addition, FAA does not ensure
that air carriers fully implement corrective actions or verify whether the actions
are adequate at resolving the problems.

FAA does not effectively collect, analyze, and trend VDRP data to identify safety
risks at the national level. As a result, FAA inspectors are not realizing the full
benefits of VDRP data to identify safety risks and aid in their inspection planning
process. Despite these issues, we found that some air carriers and FAA offices
have begun analyzing disclosures to identify trends that represent risks. For
example, at three FAA offices we visited, inspectors developed a method to link
self-disclosures to established surveillance areas (e.g., airworthiness directives and
maintenance requirements), which has aided in their inspection planning.
However, these practices are not required and thus, are not widely used throughout
the industry. Consequently, FAA is missing a significant opportunity to target
inspections to areas of highest risk.

We are making a series of recommendations to improve FAA’s oversight and
ability to identify safety risks using VDRP.

FAA DOES NOT ADEQUATELY EMPHASIZE THE UNDERLYING
CAUSES OF VDRP VIOLATIONS
In response to our 2008 report, FAA improved VDRP guidance and oversight by
requiring senior office managers to approve both the acceptance and closure of air
carrier self-disclosures. However, FAA controls are not effective in ensuring that
air carrier corrective actions address the root causes of safety violations and
identify systemic issues. In addition, FAA does not consistently confirm that
corrective actions are fully implemented and effective, and senior office managers
do not always have all the information needed to determine whether a disclosure
can be closed. Finally, air carriers are concerned about the duplication of work
required to process the same violation through VDRP and ASAP, but FAA is
exploring ways for handling certain violations using only ASAP.
                                                                                    6


FAA Does Not Ensure That Air Carrier Corrective Actions Address
Root Causes of Safety Violations and Identify Systemic Issues
FAA’s VDRP process lacks sufficient attention to the root causes of air carrier
violations. After an air carrier submits its complete report, FAA is required to
review the air carrier’s proposed corrective actions and implementation plans to
determine whether they will address the reported violation. Identifying the root
cause of a violation (e.g., missing a step on a maintenance task card) is important
in this process because revisions to a flawed process or procedure will often
eliminate or reduce the probability of reoccurrence. However, we found that FAA
inspectors lack an awareness of the root causes behind most reported violations, in
part because the electronic VDRP system used by air carriers does not include a
specific section for documenting root causes. Without clear documentation from
air carriers, FAA inspectors cannot easily verify whether the carriers have
identified the root cause of violations and addressed them in their proposed
corrective actions.

Root cause analysis is an important tool that helps airlines identify the contributing
factors of violations rather than just the obvious symptoms, and this tool is critical
to ensure the effectiveness of any proposed corrective actions. For example, in
2011, one air carrier voluntarily disclosed that one of its aircraft’s main batteries
was inadvertently replaced with another battery that had exceeded its shelf-life and
the aircraft had been flown on four flights with the expired battery. The air carrier
used root cause analysis to determine that an issue with the parts tracking system
was causing parts to be retained beyond their shelf-life. As its comprehensive fix,
the air carrier corrected the problem, and no further incidents involving shelf-life
have since been reported. As this example illustrates, by identifying and then
addressing the root cause of a given safety violation, air carriers can better ensure
that their proposed corrective actions will effectively prevent a violation from
recurring.

FAA’s guidance lacks clarity regarding the extent to which its inspectors should
be involved in the root cause identification process. According to the guidance,
inspectors should work with air carriers to ensure they have identified root cause
and systemic issues that led to the violation. However, FAA inspectors we
interviewed were not clear about their role and did not participate in the root cause
identification process or validate that air carriers identified root causes.

FAA’s lack of awareness of root cause analysis also limits its ability to identify
repeat disclosures and increases the risk that these violations could go
undetected—a concern we identified in our 2008 report. Because the details of
individual disclosures can vary significantly, it is difficult to identify a common
issue between multiple reports without a clear understanding of root cause(s).
However, because air carriers rarely identify the root cause of violations in the
                                                                                                                   7


VDRP system, there is no documentation or formal process to help inspectors
identify whether multiple disclosures share the same underlying cause.

Instead, at 8 of 10 FAA offices we visited, inspectors stated that they typically rely
on their past experience and memory to identify repeat disclosures. However,
many of these offices experienced significant staff turnover. For example, at four
of the offices we visited, a principal inspector changed three times within a 3 year
period starting in May 2010. Further, at one of these offices the principal
operations inspector changed six times. Without reliable, objective methods to
identify, document, and track root causes of disclosures, inspectors who transition
into a principal role may not recognize repetitive issues. For example, we found
that a new operations inspector for a major airline accepted three self-disclosures
involving flights with less than the minimum number of required flight attendants 7
before realizing that nine similar violations had been previously accepted (see
figure 3 below).

Figure 3. Missed Flight Attendant Minimums at One Air Carrier
(2009–2012)




Source: OIG analysis of FAA VDRP data.

The VDRP also does not require air carriers to specify whether the violation
occurred due to the actions of an individual or a systemic problem. This is
important because if the issue is systemic, the carrier will have to develop a
detailed fix to address the system as a whole—whereas if the issue is more isolated
or individual, the fix will be focused more at the employee level, such as providing
counseling or training. Without this information, FAA inspectors are not able to
determine whether multiple self-disclosures with similar violations handled at an
individual level are indicative of a larger system-wide problem at an air carrier.
For example, a large air carrier we visited self-disclosed 31 minimum equipment
list 8 violations over a 5-year period, 11 of which occurred in the same year.

7
  14 CFR 121.391 requires air carriers to provide a minimum number of qualified flight attendants when passengers are
on board the aircraft.
8
  Minimum equipment lists provide for the operation of the aircraft with certain instruments and equipment in an
inoperable condition.
                                                                                                                       8


Despite similar violations occurring at multiple locations, the air carrier focused
the majority of its corrective actions at the individuals involved in each incident
rather than system-wide improvements to the minimum equipment list process.

FAA Lacks an Effective Process for Ensuring Implementation and
Effectiveness of Corrective Actions
FAA inspectors do not document steps taken to verify that air carrier corrective
actions were effectively implemented. FAA inspectors are required to perform
surveillance and monitor air carrier corrective actions associated with self-
disclosures. However, 77 of 110 self-disclosures included in our sample did not
contain details of the inspection or any follow-up actions. While the VDRP system
has a comment block in the surveillance section to provide this information (as
shown in figure 4), inspectors do not routinely include comments related to the
inspection. Without this additional information, there is no evidence that
inspectors performed surveillance to ensure that the corrective action was
working.

Figure 4. Example of Surveillance Section of a VDRP Form




                                       No surveillance comments provided on
                                       77 of 110 self-disclosures reviewed.




Source: FAA’s VDRP database.

Instead, FAA inspectors we interviewed stated that they record the results of their
surveillance in other inspection databases, including the Air Transportation
Oversight System (ATOS) 9 and the Program Tracking and Reporting Subsystem



9
  A data-driven, risk-based system used by FAA at Part 121 air carriers to conduct surveillance of air carrier
maintenance and operations by using data analysis to focus inspections on areas that pose the greatest risk and identify
potential problems before accidents occur.
                                                                                                                      9


(PTRS). 10 However, entries in these systems varied dramatically in the details
provided, and lacked information needed to trace the entry back to the specific
problem described in the self-disclosure. Furthermore, because of confidentiality
protections, FAA does not allow any VDRP-identifying data to be included in
other inspection systems, which demonstrates the importance of providing this
information in VDRP’s secure system.

Without a record of the surveillance performed, inspectors may not be able to
ensure the full implementation of air carrier corrective actions. For example, an air
carrier we visited submitted a self-disclosure for failing to conduct mandatory
inspections of the airplane battery, which is intended to prevent the loss of all
electrical power on the aircraft. To prevent the issue from recurring, the carrier
agreed to upgrade its maintenance tracking and planning system to alert mechanics
of the required inspection. However, due to problems with upgrading the system,
the carrier did not make the necessary modifications and the airline missed another
required inspection. Also, the FAA inspectors had not documented the
surveillance information and were unaware that the corrective action was not
completed, despite a second disclosure of a similar violation.

In addition, FAA does not review required air carrier self-audits. The VDRP
requires air carriers to perform a self-audit to ensure their proposed corrective
actions were implemented and effective. However, inspectors in 7 of the 10 FAA
offices we visited did not routinely review the results of these audits. Instead,
inspectors relied on confirmations from the carrier that the audits were
completed. This is a concern because three air carriers we reviewed did not
perform the required self-audits at all. In addition, five air carriers we visited did
not evaluate the effectiveness of corrective actions during self-audits—they only
verified the implementation.

Multiple carriers stated the effectiveness of a corrective action is best determined
over time—not immediately following its implementation. For example, as a best
practice, one air carrier established a corrective action review board made up of
senior management officials that meets quarterly to ensure implemented fixes
effectively addressed reported issues. The carrier cited an example of an issue
where maintenance personnel did not complete a required inspection of an aircraft
involved in a lightning strike prior to returning it to service. Once the missed
inspection was discovered, the airline immediately grounded the aircraft and
self-disclosed the violation to FAA. For its corrective action, the carrier enhanced
its inspection process, and the Agency closed the disclosure. However, the
corrective actions remained in the carrier’s internal review board process until


10
  FAA database that provides for the collection, storage, retrieval, and analysis of data resulting from FAA inspections
and surveillance.
                                                                                                                    10


another lighting strike occurred, which allowed the board to evaluate the
effectiveness of the changes.

Finally, FAA lacks controls to ensure that any subsequent revisions to
comprehensive fixes do not have an adverse and unintended impact on the
effectiveness of the corrective action. For example, an air carrier could make a
change to its maintenance manual in response to a VDRP violation, but then revise
the manual several months later in a way that may no longer address the violation
from the VDRP report. While FAA requires air carriers to obtain Agency approval
if they later make changes to approved corrective actions, only 4 of the 10 air
carriers we visited had a process to identify these changes. Without controls to
identify and track changes, air carriers may modify procedures which could nullify
a previous report and thereby increase the likelihood of another event.

Lack of Information Hinders FAA’s Ability To Conduct Effective
Second-Level Reviews and Make Informed Decisions on Whether a
VDRP Report Should Be Closed
FAA senior office managers lack adequate details for making an informed and
data-driven decision on whether to close a VDRP report. VDRP guidance requires
that senior office managers determine the adequacy of the comprehensive fix and
its implementation prior to closing a self-disclosure report. However, our review
of 110 self-disclosures showed that 42 reports did not contain enough information
from FAA inspectors or the air carrier to show that the comprehensive fix was
properly implemented and working effectively.

In the absence of clear evidence that corrective actions were completed, senior
FAA office managers typically rely on informal and undocumented
communication with inspectors to make a final determination on whether to close
out the disclosure. However, this method has the potential to undermine the
effectiveness of the second-level review. For example, officials at one carrier were
not able to provide substantiation that they fully completed the comprehensive
fixes for two out of three self-disclosures we reviewed. Specifically:

• In one report, the air carrier voluntarily disclosed a violation in which an
  improper tool was used to secure a right side thrust reverser 11 on an aircraft,
  which caused the system to malfunction. On the next flight, the thrust reverser
  was activated upon landing but did not work because of the improper
  maintenance. As part of the comprehensive fix, the carrier agreed to purchase a
  new part. However, our review of the purchase order revealed that FAA closed
  the report prior to the carrier purchasing the new part.

11
   Thrust reverser systems are used by many jet aircraft to help slow down just after touch-down, reducing wear on the
brakes and enabling shorter landing distances. Having such devices is considered important for operational safety by air
carriers.
                                                                                   11


• In another report, an air carrier self-disclosed that they were not in compliance
  with Federal requirements for collecting 2 hours of cockpit voice recorder data
  for each flight. FAA closed the VDRP report based on the carrier’s
  commitment to a three-part corrective fix, which included improvements to
  tracking, procedures, and software. However, the carrier was not able to
  provide evidence that it fully completed all elements of the comprehensive fix.
  Nevertheless, FAA closed the disclosure.

Similarly, inspectors at one FAA office closed reports before implementation even
though the carrier’s corrective actions were planned over an extended timeframe.
For example, an air carrier self-disclosed that a pilot failed to complete required
security training needed to maintain his qualification on the aircraft. The pilot
performed multiple flights over a 2-week period before the airline discovered the
violation. As a corrective action, the carrier developed changes to its crew records
forms and scheduling program, which were to be completed by March 2011.
However, in March 2009, FAA accepted the proposed actions and closed the
disclosure, without ensuring that employees were trained and the new procedures
were effective.

Plans To Reduce Reports Included in VDRP Could Further Limit
Inspectors’ Ability To Identify Safety Risks
The VDRP and ASAP programs often contain the same safety violations to protect
the interests of both the employee and the company. Under the ASAP program,
aviation employees can self-report violations to air carriers and FAA without fear
of reprisal through legal or disciplinary actions. These reports do not contain
identifying details in order to protect the confidentiality of the employee. At 7 of
the 10 air carriers we visited, officials stated that they are strongly encouraged by
their FAA office to file a self-disclosure (VDRP) for ASAP incidents. However,
air carrier representatives we interviewed raised concerns that this practice causes
an undue burden on the air carrier if the violation was not a company violation,
rather an employee only violation. Additionally, air carrier representatives felt that
many of these issues could have been corrected through the ASAP program alone.

While VDRP guidance allows air carriers to use an approved ASAP corrective
action within a VDRP report, most air carriers and FAA offices were not aware of
this possibility. As a result, air carriers often create two work streams including
separate comprehensive fixes for the same issue. While these programs contain
similarities in design and work flow, we did identify fundamental differences in
the level of FAA involvement and the ability to access and track reports, as shown
in figure 5 below.
                                                                                       12


Figure 5. ASAP vs. VDRP Work Streams

                     ASAP                                   VDRP
               Report Submitted by Employee          Report Submitted by Company


             Report Accepted by Event Review
           Committee (ERC) Made of Company,             Report Accepted by FAA
           Labor Association, and FAA Personnel


                                                    FAA Approves Corrective Actions
                ERC Responds with
                                                     Developed and Implemented by
           Recommended Corrective Actions
                                                             the Company


               Administrative Action Against          Administrative Action Against
                        Employee                               Company


                                                      Safety Data Is More Readily
           Inspectors Do Not Have Access to
                                                    Avialable to FAA for Purposes of
              Reports for Trend Analysis
                                                         Tracking and Trending

Source: OIG.

FAA is in the process of updating guidance to better streamline these programs by
allowing some ASAP reports and corrective actions to take the place of VDRP
disclosures when the violation is due entirely to the actions of an employee or if it
is due to a systemic or procedural deficiency within the company. This would
represent a significant change in the way these programs operate; however, it may
further limit inspector’s ability to identify safety trends. For example, if certain
self-disclosures are only entered into ASAP, the number of VDRP reports would
be reduced. Because inspectors do not have access to reports in ASAP, they would
be unable to use this valuable safety data for trend analysis. Therefore, while
FAA’s new guidance for ASAP and VDRP could potentially increase the
efficiency of its programs, it could also end up restricting inspectors’ access to
valuable safety data.

FAA DOES NOT EFFECTIVELY COLLECT, ANALYZE, AND
TREND VDRP DATA TO IDENTIFY SAFETY RISKS
While VDRP provides FAA with important safety information that otherwise may
go undetected, the Agency does not analyze self-disclosure data to identify trends
and target safety risks. In response to the 2008 investigation and recommendations
from the IRT, FAA began to review and analyze VDRP reports to categorize
events (e.g., maintenance, operations, etc.) and identify trends and patterns that
                                                                                                                 13


may represent risks. Additionally, FAA issued guidance requiring inspectors to
use these data during inspection planning.

However, the Agency found that existing data access and analysis tools within
VDRP, as well as quarterly summary reports, did not provide meaningful
information that could be used by inspectors in monitoring safety issues and
planning inspections. In 2011, an FAA workgroup formed to develop the best
strategy for assessing VDRP data and found that the Agency’s Safety Performance
Analysis System (SPAS) 12 could be used to achieve the group’s recommendations.
However, the Agency has delayed implementing this reporting capability until
funding can be dedicated to this project.

While FAA is not using VDRP data to trend risks at the national level, some local
FAA offices have implemented best practices that use VDRP data to improve their
surveillance. For example, inspectors at three FAA oversight offices we visited
associated self-disclosures with specific air carrier activities that are part of FAA’s
planned oversight process. These offices could then trend the combined
surveillance and self-disclosure data to identify areas of increased risk and assign
inspections as necessary.

In addition, FAA inspectors routinely attend monthly air carrier meetings focused
on issues identified within their maintenance programs. One FAA inspector used
VDRP data to pinpoint deficiencies in a carrier’s maintenance program, which
prompted the airline to increase its awareness and depth of VDRP detail in its
monthly presentations. At four air carriers we visited, self-disclosures were
incorporated with other safety data (e.g., ASAP) to detect trends, highlight priority
events, and make process improvements. In addition, analysis of VDRP data was a
major factor in helping two carriers’ secure human factors training for their
employees. Representatives at these carriers used trend data to show executives
within the organization that self-disclosure violations could be directly attributed
to human error. However, these practices are not in place at all carriers and FAA
offices, and, on the whole, we found inspectors did not regularly adjust their
surveillance based on self-disclosures.

In June 2005, FAA created a procedure for its regional offices to audit and verify
air carrier compliance with voluntary disclosure policies. Regional offices review
self-disclosures to ensure that all the fields were completed in the VDRP Web-
based entry, required attachments were accounted for, and the conditions of
acceptance were met. However, these reviews do not involve tracking or trending
of self-disclosures at or between air carriers. Furthermore, if repeat offenses exist,
FAA guidance states that regional officials are to ensure that the carrier revises the

12
  Computer system designed to analyze information about air carriers from existing safety databases, and alert
inspectors to pending safety trends.
                                                                                 14


comprehensive fix to prevent further recurrence. However, regional officials do
not track or trend the nature of self-disclosures and do not have a historical
vantage point from which to determine whether disclosures were repetitive.

CONCLUSION
Voluntary safety programs, such as VDRP, play a vital role in FAA’s mission to
improve the safety of the commercial air carrier industry. Since 2008, FAA has
strengthened controls to deter misuse of the program and attempted better data
analysis of self-disclosure reports. However, FAA can further improve the
program by focusing attention on root cause analysis, tracking air carrier
corrective actions, and trending data to ensure the effectiveness of air carrier
corrective actions and prevent repeat violations. Otherwise, FAA may be missing
opportunities to use available VDRP safety data to identify precursors to accidents
or incidents that may compromise safety.

RECOMMENDATIONS
To further improve the VDRP program, we recommend that FAA:

1. Add dedicated data fields in the VDRP electronic system for air carriers to
   describe the root cause(s) associated with the non-compliance and identify
   whether the violation occurred due to the actions of an individual or a systemic
   problem.

2. Require inspectors to evaluate the root cause(s) determination to ensure repeat
   self-disclosures do not go undetected and potential systemic issues are
   identified.

3. Require inspectors to use the dedicated field within the VDRP electronic
   system to document the surveillance performed as a result of self-disclosures.

4. Require inspectors to ensure that air carriers track any revisions to programs
   and procedures resulting from VDRP disclosures to prevent future
   modification without consideration of VDRP requirements.

5. Provide familiarization training to inspectors and office managers regarding
   VDRP guidance that allows the ASAP corrective actions to be used as the
   comprehensive fix for a voluntary disclosure when certain conditions are met.

6. Ensure that inspectors’ ability to obtain safety data is not further restricted
   through efforts to streamline voluntary safety programs.

7. Develop a mechanism to assist inspectors with surveillance planning,
   identification of safety issues, and monitoring trends for Part 121 air carriers.
                                                                              15


8. Analyze VDRP data from a national perspective to aid in the identification of
   system-wide trends and patterns that represent risks.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on January 31, 2014. The Agency did
not provide a written response to the report or our recommendations. Throughout
the review, we discussed our findings and proposed recommendations with FAA
representatives. Where appropriate, we incorporated FAA’s comments and input
received during our meetings at both FAA headquarters and regional offices.
However, until we receive the Agency’s written response, our recommendations
will remain open and unresolved.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, a written
response to this report and our recommendations is required. If you concur with
the findings and recommendations, please indicate the specific action taken or
planned for each recommendation and the target date for completion. If you do not
concur, please provide your rationale. You may provide alternative courses of
action that you believe would resolve the issues presented in this report. Please
provide your response within 30 days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                       #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                   16


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this review between September 2012 and January 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our audit work was conducted at five FAA Certificate Management Offices and
five Flight Standards District Offices that had oversight responsibility for the air
carriers in our review. We used a statistical sampling methodology to select the 10
air carriers. Our universe was comprised of 86 active FAR Part 121 air carriers as
of July 23, 2012, and reduced to 48 when reviewing carriers with more than 10
closed voluntary disclosures from October 1, 2007 to July 23, 2012.

We used FAA’s categories of operator types (Large Part 121, Small Part 121 and
supplemental, and Part 121/Part 135 air carriers) to stratify the universe and we
selected our sample using those categories. Samples were selected with probability
proportional to the number of voluntary disclosures with replacement. With the
assistance of Team SAI, an air transportation consulting firm, we conducted an
analysis of disclosure reports to identify whether FAA had accepted repetitive
issues, and whether air carriers took appropriate corrective actions and reduced the
likelihood of reoccurrence. Our sample consisted of 6 large Part 121 air carriers, 3
small Part 121 and supplemental air carriers, and 2 Part 121/Part 135 air carriers
for a total of 11 air carriers visited. The number of carriers was reduced to 10
when we excluded a Part 121 supplemental air carrier to remove any appearance
of a lack of independence due to our aviation consultant’s prior work with that
carrier.

To evaluate the effectiveness of FAA’s oversight of VDRP, we interviewed 53
FAA inspectors responsible for oversight of the program at the 10 air carriers in
our review. We also interviewed the applicable senior office managers at each
FAA office visited. To conduct our reviews at the 10 air carriers, we randomly
selected 110 VDRs out of 1,335 disclosures from these carriers from October 1,
2007 to July 23, 2012. In addition, we interviewed air carrier officials to gain their
perspective and experience with VDRP.




Exhibit A. Scope and Methodology
                                                                              17


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration (FAA) Headquarters and Regional Offices:
Flight Standards Service                                Washington, DC
Aviation Safety                                         Washington, DC
    Quality Integration & Executive Service             Washington, DC
    Flight Standards Service                            Washington, DC
        Air Transportation Division, Voluntary Safety
        Programs Branch                                 Washington, DC
Southwest Region                                        Fort Worth, TX

FAA Certificate Management Offices (CMO):
AMR CMO                                                 Irving, TX
Atlanta CMO                                             Hapeville, GA
Portland CMO                                            Hillsboro, OR
Southwest Airlines CMO                                  Irving, TX
United Air Lines CMO                                    Des Plaines, IL

FAA Certificate Management Units (CMU) at Flight Standards District
Offices (FSDO):
ABX Air CMU at East Michigan FSDO                       Belleville, MI
Air Wisconsin CMU at Chicago O’Hare FSDO                Des Plaines, IL
Empire Airlines CMU at Spokane FSDO                     Spokane, WA
Piedmont Airlines CMU at Baltimore FSDO                 Glen Burnie, MD
Vision Airlines CMU at Las Vegas FSDO                   Las Vegas, NV

Air Carriers:
ABX Air                                                 Wilmington, OH
Air Wisconsin Airlines                                  Appleton, WI
American Airlines                                       Fort Worth, TX
Empire Airlines                                         Hayden, ID
Evergreen International Airlines                        McMinnville, OR
ExpressJet Airlines                                     Atlanta, GA
Piedmont Airlines                                       Salisbury, MD
Southwest Airlines                                      Dallas, TX
United Airlines                                         Chicago, IL
Vision Airlines                                         North Las Vegas, NV




Exhibit B. Organizations Visited or Contacted
                                                                                                   18


EXHIBIT C. VDRP PROCESS

                • Air Carrier to notify FAA of an apparent violation: 24 for initial, 72 hours in VDRP
                 system.
                • Notification should provide descriptions of the violation, immediate action
   Stage 1 -     taken, and ongoing evaluation with a commitment to provide a written report
   24 hours      within 10 days.



                • FAA Principal Inspector: Does report meet requirements for acceptance into
                 VDRP? (Criteria: Timely, Inadvertent, Carrier Qualified, Conduct stopped, Carrier
                 developing comprehensive fix, and Submitted by management official.)

    Stage 2     • FAA Senior Office Manager: Concur with Principal Inspector determination for
                 acceptance?



                • Air Carrier to provide written report to FAA within 10 working days, suggested
                 no later than 30 calendar days.
   Stage 3 -    • Report should include detailed description of comprehensive fix, individual
                 responsible for implementation, and an implementation schedule.
   10 Days




                • FAA: Is proposed corrective action acceptable to FAA? (Determined by
                 evaluating written report, root cause analysis, proposed fix, and risk matrix.)
    Stage 4



               • Air Carrier is to implement comprehensive fix as outlined in written report.
               • FAA is to monitor air carrier implementation of corrective actions and carrier top
                management's awareness of actions taken.
    Stage 5



                • FAA Principal Inspector: Has the comprehensive fix been satisfactorily
                 implemented and included the carrier's self audit?
                • FAA Senior Office Manager: Concur with Principal Inspector determination for
    Stage 6      closure?




Exhibit C. VDRP Process
                                                                  19


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title

Tina Nysted                                    Program Director

Travis Wiley                                   Project Manager

Anne Longtin                                   Senior Analyst

Marshall Anderson                              Senior Analyst

Ruth Foyere                                    Analyst

Audre Azuolas                                  Writer/Editor

Megha Joshipura                                Statistician




Exhibit D. Major Contributors to This Report
